1a
APPENDIX A
UNITED STATES COURT OF APPEALS FOR THE
EIGHTH CIRCUIT

No. 20-2047
Carrie S. Willis, individually and as trustee of the
Trust of James C. and Norma D. Willis,
Plaintiff-Appellee
v.
Stephen Boyd; Jason Brushwood; Missouri Highway
Patrol; Sergeant D Nash; The City of Farmington,
New Mexico, doing business as Farmington Police
Department; Detective Corporal Russell Bradford,
Defendants
United States of America,
Defendant-Appellant
Robert Jackson, IRS Special Agent, Individually and
in his official capacity; Scott Wells, IRS Special
Agent, Individually and in his official capacity,
Defendants.

Appeal from the United States District Court for the
Western District of Missouri- Springfield

Submitted: February 17, 2021
Filed: April 2, 2021

2a

Before SMITH, Chief Judge, ARNOLD and STRAS,
Circuit Judges.
ARNOLD, Circuit Judge.
This is a case of mistaken identity, though not of
the usual kind. During the search of Carrie Willis’s
home, police seized a large number of coins and passed
them along to the Internal Revenue Service. An IRS
agent deposited the coins at their face value into an
IRS account and later remitted the amount to Willis.
She maintains the coins were collectors’ items and so
the agent was mistaken when he essentially swapped
them for ordinary currency, greatly discounting their
value, so she sued the government under the Federal
Tort Claims Act for conversion. After a bench trial, the
district court agreed and awarded Willis $94,880. The
government appeals, arguing that the district court
erred when it concluded that the FTCA had waived the
government’s sovereign immunity to suit in the
current circumstances. We agree with the government
and so reverse and remand.
According to the district court’s findings of fact,
which the parties do not challenge, the government
seized 364 boxes of recently minted one-dollar coins
commemorating deceased U.S. Presidents. Each box
contained one thousand coins. An agent with the local
IRS office took possession of them the day after they
were seized and had them removed from their original
packaging and processed through a coin counter, after
which $364,000 was deposited into an IRS account.
The agent admits that he did not make an effort to

3a
determine whether the coins had any numismatic
value. A few years later, after Willis requested the
coins’ return, the IRS informed her they had been
“converted to cash and deposited into the government’s
account.” When the government then paid Willis the
face value of the coins, she asserted they were worth
a great deal more than that as collectors’ items. This
suit followed.
A person who sues the federal government must
show that it has unequivocally waived its sovereign
immunity from suit. See Barnes v. United States, 448
F.3d 1065, 1066 (8th Cir. 2006). The FTCA waives
sovereign immunity in suits seeking money damages
against the federal government “for injury or loss of
property . . . caused by the negligent or wrongful act or
omission of any employee of the Government while
acting within the scope of his office or employment,
under circumstances where the United States, if a
private person, would be liable to the claimant.”
28 U.S.C. § 1346(b)(1); see also Brownback v. King, 141
S. Ct. 740, 746 (2021).
But the FTCA contains a number of exceptions to
this general waiver of immunity. Hinsley v. Standing
Rock Child Protective Servs., 516 F.3d 668, 672 (8th
Cir. 2008). The so-called “discretionary-function
exception” that the government relies on as a bar to
this action applies when government agents make
decisions that are discretionary in nature, that is, ones
that involve “an element of judgment or choice.” See
United States v. Gaubert, 499 U.S. 315, 322 (1991).
More specifically, the exception applies to any claim
that is “based upon the exercise or performance or the
failure to exercise or perform a discretionary function
or duty on the part of a federal agency or an employee

4a
of the Government, whether or not the discretion
involved be abused.” 28 U.S.C. § 2680(a).
The Supreme Court has held, though, that the
exception, despite its apparent breadth, does not
insulate from suit every discretionary decision that a
government agent makes; the decision must be “of the
kind that the discretionary function exception was
designed to shield.” See Gaubert, 499 U.S. at 322–23.
The Court has explained that, in enacting this
exception, “Congress wished to prevent judicial
‘second-guessing’ of legislative and administrative
decisions grounded in social, economic, and political
policy through the medium of an action in tort.” See
United States v. Varig Airlines, 467 U.S. 797, 814
(1984). So suppose, for example, that a government
agent was driving a car on government business and
negligently caused an accident. While “driving
requires the constant exercise of discretion,” that’s not
the type of discretion that triggers the exception
because the decisions the agent makes when
exercising the discretion associated with driving a car
are not grounded in government policy. See Gaubert,
499 U.S. at 325 n.7.
The upshot of these and other Supreme Court
decisions is that we must answer two questions to
determine if the exception applies. First, we ask
“whether the challenged conduct or omission is ‘truly
discretionary’” in that “it involves an element of
judgment or choice instead of being controlled by
mandatory statutes or regulations.” See Buckler v.
United States, 919 F.3d 1038, 1045 (8th Cir. 2019). If it
is, we consider whether the employee’s judgment or
choice could be “based on considerations of social,
economic, and political policy.” Id. If it could, the

5a
exception applies, and sovereign immunity bars the
suit.
The parties vigorously dispute whether the agent’s
decision to send the coins for processing rather than to
preserve them in specie was a matter that is “truly
discretionary” or if it was mandated by laws or policies
that the agent failed to follow. We agree with the
government that the agent’s decision was a
discretionary one. The manual governing the actions
of IRS agents provided, as relevant here, “that
domestic and foreign currency seized for forfeiture,
except where it is . . . held as a ‘collectible asset,’ must
be expeditiously counted, processed, and deposited . .
. within 5 days of seizure.” See Internal Revenue
Manual § 9.7.4.6.1(2); see also id. § 9.7.6.14.1(1).
Willis’s own expert agrees that neither that
manual nor any other mandatory rule instructed an
agent how to determine whether seized currency is a
“collectible asset.” That determination is left to the
agent’s discretion. Willis asserts that the agent
violated this manual provision by failing to investigate
whether the coins had a special value to collectors. But
that provision does not direct an agent to undertake
an investigation. The agent satisfied the provision
when he determined that the coins were ordinary
currency and had them expeditiously processed.
Willis's argument misses the mark.
Willis maintains that some other provisions of the
IRS manual required the agent to investigate whether
the coins had collectors’ value. For example, Willis
faults the agent for failing to fulfill certain “pre-seizure
planning” obligations, including a general obligation to
consider and “realistic[ally] estimate” the value of
seized property. See id. § 9.7.4.3.2(1). But the

6a
provision Willis cites never elaborates on the
information an agent must obtain before making a
realistic estimate. It never spells out when additional
investigatory duties are triggered, or what an
additional investigation might look like; rather, it
apparently gives an agent discretion to determine
whether seized currencies’ face value is a realistic
estimate of its worth or whether an investigation into
its value as a collectible asset is needed and what it
might entail.
Willis also points to provisions in the IRS manual
relating to the storage of seized property and property
appraisals. See id. §§ 9.7.6.9.2(1), 9.7.6.8(1), 9.7.6.8.1,
9.7.6.7.3. But those provisions do not guide agents in
determining whether seized currency is collectible in
the first place. At most, they tell agents how to handle
coins like these should they conclude that the coins are
collectibles. But as we’ve pointed out before, we may
not ignore the discretion associated with an
underlying, antecedent determination. Buckler, 919
F.3d at 1050.
We think this case is distinguishable from Buckler
and Appley Brothers v. United States, 164 F.3d 1164
(8th Cir. 1999), two cases Willis invokes for the
proposition that the discretionary-function exception
does not apply when a government agent fails to
perform a mandatory task requiring discretion to carry
out. In Buckler, for example, a plaintiff sued a mine
inspector who was obligated to review certain training
records. 919 F.3d at 1054. Our court explained that,
though the inspector had discretion in how to examine
those records, he was obliged to conduct at least some
review, and so his alleged entire failure to do so did not
trigger the discretionary-function exception. See id.

7a
Similarly, in Appley Brothers, a grain-warehouse
inspector had discretion in how he carried out a
mandatory grain inspection, and since the complaint
centered on an allegation that the inspector conducted
no inspection at all, rather than an allegation that the
inspector had performed his obligations negligently,
we held that the discretionary-function exception did
not apply. 164 F.3d at 1172–73.
Here, however, the agent satisfied his mandatory
obligation—he did not fail to decide whether the seized
currency was ordinary currency or a collectible asset.
He quite clearly decided that the coins were ordinary
currency and so had them quickly processed. Though
Willis argues that the IRS manual required him to do
more, and that his failure to follow the manual was not
discretionary, we do not think, as just explained, that
the manual required the agent to do more than he did
when he categorized the coins. Even if the decision was
carelessly made or was uninformed, the agent’s
negligence in making it is irrelevant. See Layton v.
United States, 984 F.2d 1496, 1502 (8th Cir. 1993). The
decision was still discretionary.
That brings us to the second question we must
answer—whether the agent’s choice to treat these
coins as ordinary currency could have been “based on
considerations of social, economic, and political policy.”
When we’ve already determined that a government’s
choice was discretionary, as here, we presume that it
was based on relevant policy considerations. See
Buckler, 919 F.3d at 1046. We are not convinced that
Willis has rebutted that presumption.
In rejecting the government’s argument that the
discretionary-function exception applied, the district
court pointed out that the agent exercised no judgment

8a
because he never considered whether the coins had
numismatic value, and so, presumably, there was
never a balancing of any policy considerations. As our
court has explained, however, it does not matter
whether the agent actually “engaged in conscious
policy-balancing.” What matters is whether the
decision in question is by its nature as an objective
matter “susceptible to policy analysis.” See Herden v.
United States, 726 F.3d 1042, 1047 (8th Cir. 2013) (en
banc).
A decision is quite obviously susceptible to a policy
analysis when it requires a federal employee to
balance competing policy interests. See id. at 1050.
One matter of policy at play in this case is the policy of
expeditiously depositing seized currency. Once again,
the manual required agents to count, process, and
deposit seized currency within five days. See
§§ 9.7.4.6.1(2), 9.7.6.14.1(1). A reason for this rule, the
manual elaborated, is that “[t]he security, budgetary,
and accounting problems associated with the seizure
and retention of large amounts of cash creates great
concern . . . and raises both financial management and
internal control issues.” Id. § 9.7.4.6.1(1). The manual
to the Department of Justice’s Asset Forfeiture
Program, in which the IRS participates, echoes this
concern and says that participating agencies “have
held tens of thousands of dollars in office safes and
other locations throughout the country. This raises
both financial management and internal control
issues. The Department must report annually to
Congress on the amount of seized cash not on deposit.”
DOJ Asset Forfeiture Policy Manual ch. 2, pt. VI
(previously codified at ch. 1, pt. IV). But agents acting
in circumstances like the ones present here must also

9a
undertake reasonable efforts to preserve the value of
seized property. The IRS manual requires that agents
“strive to ensure that seized property is protected and
its value preserved.” Internal Revenue Manual Ex.
9.7.1-1(IX).
What this comes down to is that agents who seize
currency must balance the competing interests of
expeditious deposit on the one hand and preserving
property on the other—a calculation that plainly
involves questions of social, economic, and political
policies as to which the IRS and DOJ have
understandably professed “great concern.” So we
conclude that the agent’s choice was “susceptible to
policy analysis” in the relevant sense. Cf. Metter v.
United States, 785 F.3d 1227, 1233 (8th Cir. 2015).
We therefore hold that the FTCA’s discretionaryfunction exception applies, and so the government has
not waived its sovereign immunity.
We reverse the judgment of the district court and
remand for it to dismiss Willis’s claim.

10a
APPENDIX B
IN THE UNITED STATES DISTRICT COURT FOR
THE WESTERN DISTRICT OF MISSOURI
SOUTHERN DIVISION
CARRIE S. WILLIS,
Plaintiff,
v.
UNITED STATES OF
AMERICA,
Defendant.

)
)
)
)
)
)
)
)

Case No.
6:16-cv-03251-SRB

MEMORANDUM OF DECISION
On November 12, 2019, the Court commenced a
two-day bench trial on Plaintiff Carrie S. Willis’s
claims based on the Federal Tort Claims Act, 28 U.S.C.
§ 1346, et seq. (“FTCA”). Pursuant to Federal Rule of
Civil Procedure 52(a)(1), “In an action tried on the
facts without a jury . . ., the court must find the facts
specially and state its conclusions of law separately.”
The Court need not make specific findings on all facts
but only “on the ultimate facts necessary to reach a
decision.” Allied Van Lines, Inc. v. Small Bus. Admin.,
667 F.2d 751, 753 (8th Cir. 1982) (citations omitted).
“Findings are adequate if they afford a reviewing court
a clear understanding of the basis of the trial court’s
decision.” Id. (citations and internal quotation marks
omitted).
I. Findings of Fact
Based on the evidence presented at trial and the
Court’s credibility determinations of the witnesses
who provided testimony, the Court makes the

11a
following fact findings:
$1 Presidential Coin History
1. In 2007, the United States Treasury (“Treasury”)
began issuing $1 coins depicting deceased United
States Presidents with the intended purpose of
having the coins replace paper dollars.
2. The initial release of these $1 Presidential coins
(George Washington through James Garfield) was
done by the Treasury on a rolling basis between
February 15, 2007, (George Washington) and
November 17, 2011 (James Garfield).
3. The $1 Presidential coins from George
Washington through James Garfield were
intended for wide circulating production and
accordingly were minted in large numbers ranging
from a high of over 163 million George Washington
coins to a low of over 36 million James Buchanan
coins.
4. In all, over two billion $1 Presidential coins were
produced by the United States Mint at facilities in
Denver and Philadelphia between 2007 and 2011,
using a production process that moved as quickly
as possible for the purpose of getting the coins into
circulation as United States currency.
5. The minting process involved taking a massive
metal coil, feeding the coil into a blanking press to
create coin-sized disks, placing the metal disks
into a larger heater (running between 700° to 900°
F.), feeding the annealed disks into “cleaning” and
“upsetting” processes, and then running the disks
into high-speed stamping and edge-lettering
presses.

12a
6. The $1 Presidential coins minted between 2007
and 2011 were produced with no particular care,
were dumped into bins by the thousands, and shot
into “ballistic” bags at ballistic speed causing a lot
of friction to the surface of the coins.
7. Newly-minted coins were then placed into bags of
2,000 coins each.
8. A large portion of the $1 Presidential coins minted
between 2007 and 2011 were then sent from the
United States Mint to a third-party vendor, Coin
Wrap, a commercial processor for wrapping,
rolling, and boxing to be used in commerce as
currency.
9. This wrapping, rolling, and boxing process
subjected the surface to considerable friction
impacting the circulating quality of the coins by
using a vacuum to draw up coins into an industrial
hopper and then dropping them into a wrapping
process.
10. To commercially wrap the coins, the coins in each
roll were compressed by machine and then
wrapped in multiple thin layers of paper, making
an extremely tight package. To unwrap the coins,
a roll would have had to be cracked open with
considerable force.
11. The wrap was also meant to be a security feature
to ensure that any tampering with a roll would be
evident because the roll would lose its structural
integrity.
12. Following the wrapping of the coins, Coin Wrap
placed 25 rolls of 40 $1 Presidential coins into
boxes (sometimes referred to as “bricks”) and

13a
sent them out to banks so as to permit individuals
and businesses to directly order the $1
Presidential coins in these $1,000 bricks.
13. The distribution of $1 Presidential coins in bricks
was done to help commercial retailers get the coins
into circulation more quickly and cheaply, and not
to identify the coins as collector’s items.
14. The United States Mint has no “first strike”
designation for coins. Moreover, the metal “dies”
utilized by the United States Mint, which strike
each side of a coin with artwork, wear out and are
replaced at random times making it impossible to
predict when a batch of coins might contain a coin
struck by a brand-new die.
15. The $1 Presidential coins minted between 2007
and 2011 had no designation as to when produced,
other than the name of the president and a “do not
open until” the release date sticker on each box,
making it impossible to tell when a coin was struck
by looking at the box.
16. The $1 Presidential coins were not popular with
the public and by 2011 were deemed by the
Treasury to be unsuccessful.
17. Following the issuance of the James Garfield coins
in 2011, the Treasury ended the circulating
production of $1 Presidential coins.
18. Due to the unpopularity of the $1 Presidential
coins, a surplus of over one billion unwanted coins
remains in Federal Reserve terminals and in
vaults under the United States Mint, including
millions of coins never circulated in commerce,
some in original boxes.

14a
19. From the moment that they were minted through
the present day, the $1 Presidential coins were
and still are legal United States tender with a face
value of $1 per coin.
Seizure of the Willis $1 Presidential Coins
20. Between 2007 and 2011, Bobby Willis and Carrie
Willis purchased $1 Presidential coins in 364
$1,000 bricks, obtaining coins depicting
Presidents George Washington through James
Garfield, with the following distribution:
President

Quantity

President

2007 George
Washington
2007 John
Adams

7,000

2009 James K. 20,000
Polk
20,000
2009 Zachary
Taylor

10,000

Quantity

2007 Thomas
Jefferson

10,000

2010 Millard
Fillmore

20,000

2007 James
Madison
2008 James
Monroe

10,000

2010 Franklin
Pierce

20,000

20,000

2010 James
Buchanan

20,000

26,000
2008 John
Quincy Adams
2008 Andrew 26,000
Jackson
20,000
2008 Martin
Van Buren
2009 William 20,000
Henry Harrison

2010 Abraham 20,000
Lincoln
20,000
2011 Andrew
Johnson
2011 Ulysses S. 20,000
Grant
2011 Rutherford 20,000
B. Hayes

2009 John
Tyler

2011 James
Garfield

20,000

15,000

15a
21. Twenty-percent of the funds used to purchase the
$1 Presidential coins came from the James and
Norma Willis Trust, Bobby Willis’s grandparents,
and eighty-percent of the funds came from the
Bobby L. and Carrie S. Willis Trust.
22. Bobby Willis and Carrie Willis divorced in early
2012.
23. As part of the divorce, Bobby Willis gave up any
ownership interest in the $1 Presidential coins.
24. Bobby Willis was removed as a trustee and
beneficiary of the Bobby L. and Carrie S. Willis
Trust, leaving Carrie Willis as the lone trustee and
beneficiary.
25. After Bobby and Carrie Willis’s divorce, 20% of the
$1 Presidential coins were owned by the James
and Norma Willis Trust, and 80% of the $1
Presidential coins were owned by the Bobby L. and
Carrie S. Willis Trust.
26. Plaintiff owned 80% of the $1 Presidential coins.
27. Prior to September 26, 2012, state and federal
authorities in the State of New Mexico were
actively investigating claims of financial fraud,
including embezzlement and misappropriation of
escrow money, involving the title company and
escrow business previously operated by Bobby
Willis and Carrie Willis.
28. In May 2012, Bobby Willis voluntarily and
unilaterally came into the Springfield, Missouri
IRS office to advise agents of his connection to a
foreign drug cartel and to tell the agents he was
under investigation in New Mexico
for
embezzlement.

16a
29. According to the two IRS agents in Springfield,
Missouri, who interviewed him, Bobby Willis told
them, among other things, that:
(a) he was under investigation by the Farmington
(New Mexico) Police Department and the New
Mexico Regulation and Licensing Dept.
Financial Institutions Div.,
(b) he was being asked by a “drug cartel” to
negotiate counterfeit checks in amounts
exceeding 750 million pesos,
(c) he owned “jewel mines” and was selling precious
stones to the “drug cartels,” and
(d) he was “worth a lot of money but [did] not make
a lot of money.”
Ex. 117.
30. In August 2012, state law enforcement officers
from New Mexico came to Missouri to execute
search warrants at the Branson Underground, a
storage facility used by Bobby Willis, based on a
belief that they might find evidence related to
allegations that Bobby Willis had embezzled
substantial money from his title and escrow
businesses.
31. On August 17, 2012, an IRS agent in Springfield,
Missouri, prepared an Information Report
Referral that stated the IRS had been contacted by
an attorney who stated that his client had
information concerning Bobby Willis’s dealings in
Branson, Missouri, and, on further investigation
by the IRS agent, it was learned that Bobby Willis
had “been indicted and an arrest warrant issued
on
suspicion
of
racketeering,
fraud,

17a
embezzlement, and securities fraud” and that
Willis had operated a title company in New Mexico
that showed “escrow deficits of $1.6 million.” Ex.
127.
32. In 2012, Scott Wells was employed as a Special
Agent with the IRS, working out of the
Springfield, Missouri office as a liaison with the
Missouri Highway Patrol.
33. Prior to September 26, 2012, Agent Wells was
aware that there were state and federal
investigations of Bobby Willis in New Mexico, and
Agent Wells was specifically aware of the contents
of both the May 2012 report of interview and the
August 2012 Information Referral Report.
34. On September 25, 2012, a state court judge in
Taney County, Missouri, issued a search warrant
to New Mexico state law enforcement authorities
for several additional Missouri properties
associated with Bobby Willis, including a
residence at 822 Cliff Drive, Branson, Missouri, to
search for papers and documents relative to the
financial and business transactions of Bobby
Willis in connection with allegations of fraud,
embezzlement, and theft against Bobby Willis.
35. The search warrant was executed at 822 Cliff
Drive on September 26, 2012, while Carrie Willis
was in Rochester, Minnesota.
36. During execution of the search warrant in which
several local and state law enforcement agencies
participated, Missouri State Highway Patrol
Trooper Dan Nash contacted Special Agent Scott
Wells with the IRS.
37. Trooper Nash called to inform the IRS that, while

18a
executing the Search Warrant at 822 Cliff Drive,
officers found multiple, large, black safes
containing
collectibles
and
364,000
$1
Presidential coins that were boxed and packaged.
38. The Presidential coins were outside the scope of
the search warrant.
39. Agent Wells contacted his supervisor at the IRS,
Tonya Martin, who instructed Wells to contact
Assistant United States Attorney (“AUSA”) Cindy
Hyde about whether the Presidential coins could
be seized without a warrant.
40. Agent Wells told AUSA Hyde that the Highway
Patrol executed a search warrant related to Bobby
Willis and that there was a large amount of
currency in the residence.
41. AUSA Hyde advised Agent Wells that she would
contact the AUSA office in New Mexico.
42. AUSA Hyde called Agent Wells back and
instructed Agent Wells that he could seize the
Presidential coins.
43. Agent Wells seized the coins.
44. The IRS did not apply for a seizure warrant or fill
out any affidavit explaining the need to seize the
$1 Presidential coins.

45. Agent Wells did not document the reason for
seizing the $1 Presidential coins, either before or
after the seizure occurred.
46. At the time they were seized, the Presidential
coins were in 364 boxes of 1,000 coins each.
47. Some of the boxes had been opened by Bobby
Willis.

19a
48. Each box of $1 Presidential coins that was sent to
a bank for distribution had a sticker with the
particular President’s name and two stickers with
a release date.
49. Agent Wells saw that the 364 boxes of $1
Presidential coins seized from 822 Cliff Drive also
had stickers indicating from which bank they were
purchased.
50. Agent Wells did not photograph any of the seized
items.
51. The Missouri Highway Patrol took pictures of the
stacked boxes of $1 Presidential coins, but no one
took pictures of the stamps or markings on the
boxes.
52. After the Presidential coins were seized, Special
Agent Robert Jackson, who was then the Asset
Forfeiture Coordinator (“AFC”) for the Missouri
IRS office, was contacted and travelled from
Kansas City to take possession of the Presidential
coins.
53. As the Asset Forfeiture Coordinator, Agent
Jackson was responsible for assisting IRS agents
by giving guidance, advice, and training to IRS
agents and by processing assets that had been
seized by the IRS.
54. On September 27, 2012, Agent Jackson traveled to
Springfield, Missouri, to pick up the boxes of coins
and other property.
55. On September 27, 2012, Agent Jackson had the
Presidential coins transported to Dunbar
Armored, Inc. in Kansas City, Missouri.
56. At Dunbar the Presidential coins were removed

20a
from their original packaging and processed
through a coin counter.
57. Thereafter, $364,000 was deposited in an IRS
account.
58. The boxes in which the 364,000 $1 Presidential
coins were seized were destroyed.
59. Other items of property seized at the same time as
the Presidential coins, including other collectible
coins, gems, and paper money, were stored in an
asset forfeiture safe.
60. No chain of custody documentation was created for
the $1 Presidential coins or any of the other
property stored in safes.
61. Agent Jackson did not conduct any analysis to
determine whether the $1 Presidential coins had
numismatic value.
62. On November 12, 2012, the IRS sent formal
written notice to Bobby Willis that the IRS had
seized property at the Branson residence.
63. On December 5, 2012, counsel for Plaintiff
requested return of the assets.
64. In April 2015, different counsel for Plaintiff again
sought return of the Presidential coins and other
seized property.
65. On April 13, 2015, the IRS informed counsel that
the Presidential coins had been “converted to cash
and deposited into the government’s account.” Ex.
5-T.
66. Thereafter, the IRS wire transferred $364,000 to
counsel’s trust account.

21a
67. Plaintiff’s brother, Thomas Padilla, travelled to
Kansas City to retrieve the other seized property.
68. After discovering that the Presidential coins had
been deposited into circulation, Plaintiff filed an
administrative tort claim with the Department of
Treasury on August 17, 2015.
IRS Policies
69. The Internal Revenue Manual (“IRM”) states IRS
agents should obtain judicial approval of a seizure
other than in exceptional circumstances.
70. The IRM states that warrantless seizures “should
only be made if the exigent circumstances
prohibiting the timely obtainment of a seizure
warrant can be clearly documented.”
71.

IRM policy 9.7.6.14.1(1) and IRM policy
9.7.4.6.1(2) include identical language, “Criminal
Investigation policy mandates that domestic and
foreign currency seized for forfeiture, except where
it is to be used as evidence or held as a ‘collectible
asset,’ must be expeditiously counted, processed,
and deposited to the Customs Suspense Account
within 5 days of seizure. The use of safe deposit
boxes or other secure methods of storing seized
currency temporarily is acceptable when
necessary.”
Findings as to Damages

72. Although gold-colored, the $1 Presidential coins do
not contain more than trace amounts of valuable
metal and are worth no more than 11 cents per
coin.
73. With regard to the value of the $1 Presidential
coins as collector’s items, the parties offered expert

22a
testimony from two witnesses: Mitchell Spivack,
who testified as a damages expert for the United
States, and Dane Olevian, M.D., who testified as a
damages expert for Plaintiff.
74. Dr. Olevian opined that the value of the Willis
collection based on PCGS pricing data was
$7,264,220. Dr. Olevian further opined that
certification costs given the size of the Willis
collection could be negotiated for $500,000,
resulting in a net valuation of $6,764,222.
75. The Greysheet is a monthly publication that lists
the raw value of coins. Utilizing the Greysheet
figures, Mr. Spivack’s expert report found the
value of the Willis collection to be $482,600. Mr.
Spivack then reduced this figure based on his
review of dealer-to-dealer transactions on the
Certified Coin Exchange. Mr. Spivack ultimately
concluded the value of the Willis collection as raw
coins was between $391,200 and $412,400.
76. Mr. Spivack also conducted a certified coin
analysis and found the net value was $96,743.10
due to screening and certification fees.
II. Conclusions of Law
The claims and parties involved in this case have
been narrowed during the course of the proceedings
such that Plaintiff’s Federal Torts Claims Act
(“FTCA”) claims for negligence and conversion against
the United States were all that remained at trial. In
her post-trial submission to the Court, however,
Plaintiff abandoned her negligence claim and chose to
submit only the conversion claim for the Court’s

23a
consideration.1 (Doc. #259).
“It is axiomatic that the United States may not be
sued without its consent and that the existence of
consent is a prerequisite for jurisdiction.” United
States v. Mitchell, 463 U.S. 206, 212 (1983). Generally,
the FTCA provides the United States will be liable “for
injury or loss of property, or personal injury or death
caused by the negligent or wrongful act or omission of
any employee of the Government while acting within
the scope of his office or employment, under
circumstances where the United States, if a private
person, would be liable to the claimant in accordance
with the law of the place where the act or omission
occurred.” 28 U.S.C. § 1346(b)(1). The FTCA also
includes thirteen exceptions to the United States’
waiver of sovereign immunity. 28 U.S.C. §§ 2680(a)-(f),
(h)-(n). At issue in this case are the detained-goods
exception and the discretionary-function exception.
Also at issue is this case is the FTCA statute of
limitations. Title 28 U.S.C. § 2401(b) provides, “A tort
claim against the United States shall be forever barred
unless it is presented in writing to the appropriate
Federal agency within two years after such claim
accrues or unless action is begun within six months
after the date of mailing . . . of notice of final denial of
the claim by the agency to which it was presented.”
Plaintiff presented her claim to the Department of
Treasury on August 17, 2015, so the claim must have
accrued on or after August 17, 2013, to be timely filed.
1 Irrespective of this abandonment, the Court finds Plaintiff

failed to establish at trial the elements of a negligence claim
under Missouri law.

24a
A. Conversion
The parties agree Missouri law applies to the
underlying claim of conversion. Under Missouri law,
“[p]roof of conversion can be shown in one of three
ways: (1) by tortious taking; (2) by any use or
appropriation to the use of the person in possession,
indicating a claim of right in opposition to the rights of
the owner; (3) by a refusal to give up possession to an
owner upon demand, even though the defendant's
original possession of the property was proper.”
Northland Ins. Co. v. Chet’s Tow Serv., Inc., 804
S.W.2d 54, 56 (Mo. App. W.D. 1991) (citation omitted)
(emphasis added). The Missouri Approved Instruction
for a claim of conversion based on failure to surrender
possession modified to fit the facts of this case
provides:
First, plaintiff was the owner of the 364,000 $1
Presidential coins, and
Second, defendant had possession of the 364,000
$1 Presidential coins, and
Third, plaintiff made a demand to defendant for
possession of the 364,000 $1 Presidential coins, and
Fourth, thereafter defendant intentionally failed
to return possession of the 364,000 $1 Presidential
coins to plaintiff.
M.A.I. 23.12(2).
The Court finds Plaintiff has established the
elements of conversion for failure to surrender
possession. The Court finds Plaintiff owned 80% of the
$1 Presidential coins. Defendant seized and possessed
the $1 Presidential coins. Plaintiff demanded the $1
Presidential coins be returned, and Defendant failed

25a
to return them.
Defendant argues probable cause existed to seize
the coins, which insulates it from liability. The Court
disagrees. As stated in Northland Ins., liability for
conversion can be found even where a defendant’s
original possession was proper. 804 S.W.2d at 56. The
Court need not decide whether probable cause existed
to seize the $1 Presidential coins because Defendant
was not entitled to retain possession of the $1
Presidential coins upon Plaintiff’s demand for return.
Defendant did not return the $1 Presidential coins to
Plaintiff but instead gave Plaintiff a check for
$364,000. As will be discussed more fully in the
Damages section below, the Court finds this amount
was less than the value of the $1 Presidential coins
and did not adequately compensate Plaintiff for her
loss of property.
B. Detained-Goods Exception
Even though Plaintiff has proven the elements of
a claim for conversion based on failure to surrender
possession, Defendant is entitled to sovereign
immunity and therefore insulated from liability if the
detained-goods exception applies. The detained-goods
exception preserves the United States’ sovereign
immunity over “[a]ny claim arising in respect of . . . the
detention of any goods, merchandise, or other property
by any officer of customs or excise or any other law
enforcement officer[.]” 28 U.S.C. § 2680(c). The FTCA
further includes an exception to this exception,
however, thereby re-waiving the United States’
sovereign immunity “if—(1) the property was seized
for the purpose of forfeiture under any provision of
Federal law providing for the forfeiture of property
other than as a sentence imposed upon conviction of a

26a
criminal offense; (2) the interest of the claimant was
not forfeited; (3) the interest of the claimant was not
remitted or mitigated (if the property was subject to
forfeiture); and (4) the claimant was not convicted of a
crime for which the interest of the claimant in the
property was subject to forfeiture under a Federal
criminal forfeiture law.” 28 U.S.C. §§ 2680(c)(1)-(4).
The Court finds the exception to the exception
applies in this case resulting in a waiver of sovereign
immunity as to Plaintiff’s claim. Even assuming that
the property at issue must be seized solely for the
purpose of forfeiture in order for the exception to the
exception to apply, see Petrovic v. United States, No.
4:16-cv-1744-SNLJ, 2017 WL 1058852, at *2 (E.D. Mo.
Mar. 21, 2017), aff’d, No. 17-1717, 2017 WL 4844252
(8th Cir. Sept. 20, 2017), the Court finds the evidence
presented at trial compels the factual conclusion that
the 364,000 $1 Presidential coins were seized solely for
forfeiture in this case.
Defendant’s only argument against application of
the exception to the exception found in 28 U.S.C.
§§ 2680(c)(1)-(4) is that the $1 Presidential coins were
seized for forfeiture, evidence of a crime, and potential
restitution making the exception to the exception
inapplicable. The Court finds the evidence does not
support such a factual finding. No documentation was
ever made of the reason for the seizure, either before
or after the seizure was made, even though IRS policy
required it. No chain of custody documentation was
created. No pictures were taken of the individual
boxes, which would have shown the stickers on the
boxes and the condition of each box at the time of the
seizure. Neither the coins nor the boxes in which they
were stored were kept, which directly contradicts the

27a
assertion they were seized as evidence. Agent Jackson
testified he considered the $1 Presidential coins to be
currency without any consideration or analysis of their
character as a collectible asset, and IRS policy requires
that currency seized for forfeiture be expeditiously
counted, processed, and deposited as was done here.
Based on the weight and totality of all the evidence
presented, the Court finds the $1 Presidential coins
were seized solely for forfeiture. Sovereign immunity
is, therefore, waived by 28 U.S.C. §§ 2680(c)(1)-(4).
C. Discretionary-Function Exception
Defendant also argues the discretionary-function
exception applies thereby preserving sovereign
immunity as to Plaintiff’s claim for conversion. Title
28 U.S.C. § 2680(a) excepts from the FTCA’s waiver of
sovereign immunity “any claim based upon an act or
omission of an employee of the Government . . . based
upon the exercise or performance or the failure to
exercise or perform a discretionary function or duty on
the part of a federal agency or an employee of the
Government, whether or not the discretion involved be
abused.” “The
discretionary-function exception
precludes suit against the government for harm
caused by a government employee’s acts if those acts
are subject to discretion that is grounded in social,
economic, and political policy.” Buckler v. United
States, 919 F.3d 1038, 1044 (8th Cir. 2019) (citation
and internal quotation marks omitted).
Courts employ a two-step analysis to determine
whether the discretionary-function exception applies.
As stated by the Eighth Circuit in Buckler:
First, we ask whether the challenged conduct
or omission is truly discretionary, that is,
whether it involves an element of judgment or

28a
choice instead of being controlled by
mandatory statutes or regulations. . . . If the
conduct or omission involves discretion, we
next ask whether the government employee’s
judgment
or
choice
was
based
on
considerations of social, economic, and
political policy. . . . Importantly, as long as a
discretionary decision is susceptible to policy
analysis, . . . the exception applies whether or
not [a] defendant in fact engaged in conscious
policy-balancing. And, if qualifying discretion
exists, the exception applies regardless of
whether the government employee abuses that
discretion. . . . Finally, if discretion exists, a
presumption arises that the discretion is
grounded in policy considerations, and the
plaintiff must rebut this presumption.
919 F.3d at 1045-46 (citations and internal quotation
marks omitted).
IRS policy is silent as to the difference between
currency and collectible assets. Defendant argues this
silence means Agent
Jackson’s actions were
discretionary
and, therefore, subject to the
discretionary-function exception. The evidence at trial,
however, shows Agent Jackson did not exercise any
discretion in his actions. Agent Jackson performed no
analysis regarding whether the $1 Presidential coins
had numismatic value. He used no “judgment” and
made no “choice” because he never even considered an
alternative to the $1 Presidential coins being currency.
As stated in Buckler, “Based on Appley Brothers,
therefore, we believe it is permissible, when analyzing
the discretionary-function exception, to recognize that
some duties are mandatory in that they must be

29a
performed in some fashion, even if the manner in
which they are performed involves protected
discretion.” 919 F.3d at 1052. Having failed to perform
his duty at all, Agent Jackson’s actions do not fall
within the discretionary-function exception.
D. Statute of Limitations
An FTCA “claim ‘accrues’ when the plaintiff knows
or reasonably should know of both the existence and
cause of the injury.” Slaaten v. United States, 990 F.2d
1083, 1041 (8th Cir. 1993) (citations omitted). The
Court finds Plaintiff reasonably became aware of the
existence and cause of the injury on April 13, 2015, the
date she was informed the $1 Presidential coins had
been “converted to cash and deposited into the
government’s account.” Ex. 5-T. The Court finds
Plaintiff’s claim was filed within the statute of
limitations.
E. Damages
The Court finds the most credible evidence
presented at trial as to the $1 Presidential coins’ value
came from Defendant’s expert Michal Spivack based
on the Greysheets, although the Court disagrees that
the discounts Mr. Spivack applied to the Greysheet
analysis are appropriate. Mr. Spivack’s Greysheet
analsyis resulted in a valuation of $482,600.00 for the
entire Willis collection. (Ex. 143, p. 7). The discounts
Mr. Spivack applied to this figure based on CCE
transactions are rejected by the Court. Defendant
returned $364,000 resulting in a balance of $118,600.
The Court finds the damages owed to Plaintiff are 80%
of the balance not paid out by the Government, or
$94,880.00.

30a
III. Conclusion
Based on the foregoing, the Court hereby directs
the Clerk of the Court to enter Judgment in favor of
Plaintiff Carrie S. Willis in the amount of $94,880.
IT IS SO ORDERED.
/s/ Stephen R. Bough
STEPHEN R. BOUGH, JUDGE
UNITED STATES DISTRICT COURT
DATE: March 23, 2020

31a
APPENDIX C
INTERNAL REVENUE MANUAL,
SELECTED PROVISIONS
9.7.4.2 (03-19-2003)
Pre-Seizure Planning Responsibility
1. The Assistant United States Attorney (AUSA) is
responsible for ensuring that proper and timely
pre-seizure planning occurs in civil judicial and
criminal forfeiture actions. In administrative
forfeiture
actions,
the
Asset
Forfeiture
Coordinator (AFC) has this responsibility.
2. Although the AUSA may be ultimately responsible
for pre-seizure planning in civil judicial and
criminal forfeiture actions, the AFC is responsible
for initiating the pre-seizure planning process
set forth in this section and ensuring that they
are followed in all seizure and forfeiture actions.
3. Most importantly, it is the investigating agent's
responsibility to inform the AFC of any potential
seizure or forfeiture action as early as possible, so
the AFC can ensure that timely and proper preseizure planning occurs.
4. When an individual or the underlying conduct
giving rise to the forfeiture is also the subject of a
simultaneous criminal investigation or proceeding,
the AUSA responsible for the civil forfeiture action
should consult with the AUSA responsible for the
criminal investigation or proceeding to ensure that
their activities are coordinated and consistent.
****

32a
9.7.4.3.2 (11-20-2013)
Evaluation of Property
1. When determining whether to seize property that
is subject to forfeiture, the type of property involved
and its value should be considered and analyzed.
The analysis should be a realistic estimate of the
condition and value of the property, the extent of
the violator's interest, and the potential validity of
third-party claims.
2. The seized property contractor should be consulted
to discuss possible problems with the property's
storage and preservation during the forfeiture
proceeding. The Warrants and Forfeitures Section
and the Treasury Executive Office for Asset
Forfeiture (TEOAF) should also be contacted when
particularly
difficult problems of business
management, maintenance, and/or eventual
disposition are presented.
3. If it is likely that third parties, such as lienholders
or victims, will be entitled to relief from the
forfeiture, or if the costs and difficulties of storage,
preservation, and disposition will be unduly
burdensome, it may be ill-advised or wasteful to
seize the property and attempt to forfeit it. The
same is true if the target property has a low
monetary value or is in poor condition.
****
9.7.4.6.1 (11-20-2013)
Cash
1. The security, budgetary, and accounting problems
associated with the seizure and retention of large
amounts of cash creates great concern within CI,

33a
the Department of the Treasury, and Congress, and
raises both financial management and internal
control issues.
2. Criminal Investigation policy mandates that
domestic and foreign currency seized for forfeiture,
except where it is to be used as evidence or held as
a “collectible asset,” must be expeditiously counted,
processed, and deposited to the Treasury Suspense
Account within 5 days of seizure. The use of safe
deposit boxes or other secure methods of storing
seized currency temporarily is acceptable when
necessary.
3. The TEOAF Directive Number 4, Seized Cash
Management Policy, establishes policy on the
management of seized cash, including levels of
approval to hold seized currency for evidentiary
purposes.
****
9.7.6.7 (06-11-2002)
Seized Property Management
1. The seized property contractor will take custody of
all seized property, at/or in the vicinity of the place
of seizure, or at any other location designated by
CI.
2. The AFC will make any decisions related to the
management of any seized or forfeited property
which is in the seized property contractor's custody
as outlined throughout the SOW.
****

34a
9.7.6.7.3 (03-01-2013)
Receipt and Transfer of Seized Property
1. Seized property will be transferred to the seized
property contractor at a designated site or site of
mutual agreement. The seized property contractor
will inspect and accept custody of property
associated with each consignment.
2. The seized property contractor will conduct a joint
inventory of seized property with the AFC or
designated CI contact at the time of transfer.
3. Accessories, equipment, and spare parts required
for the operation and/or maintenance of the seized
property are normally included in the seizure of the
property. Criminal Investigation should remove all
other contents such as personal effects for return to
the owner before the seized property contractor
assumes custody of the seized property.
4. A properly completed and executed Form 9573,
Custody Receipt for Retained or Seized Property
and Form 9572, Custody Receipt for Retained or
Seized Property - Continuation Sheet, are required
for all seized real and personal property
transferred to the custody of the seized property
contractor. Form 9573 serves as the chain of
custody form. Form 181, Property Inventory
Record, must be completed and provided to the
seized property contractor when transferring
custody of a conveyance to the seized property
contractor. All of these forms are available in
Document Manager.
5. At a minimum, the following information will be
entered on the Form 9573 when transferring
custody of seized property:

35a
A. AFTRAK number (if assigned)
B. CIMIS number
C. date seized
D. seizing officer
E. telephone number
F. property line item number
G. seized property description
H. condition and appraised value
I. date of transfer of custody name, title,
organization, and signature of the persons
transferring and accepting custody of the seized
property
J. item and number of units transferred
6. The seized property contractor will verify the Form
9573 for accuracy and completeness before or
during acceptance of seized property.
Note:
The seized property contractor may not refuse
custody.
7. The seized property contractor will not add
anything or write on the Form 9573 except:
A. his/her signature and quantity on the
signature line
B. annotate discrepancies
C. annotate that the seized property contractor
accepts conditional, administrative and/or
constructive custody as applicable pending
inventory

36a
8. The seized property contractor will keep the
original Forms 9573 and 9572. The original Form
9573 will be returned to the AFC upon disposition
of the seized property (see IRM 9.7.8, Disposition of
Seized and Forfeited Property).
9. A completed property Form 181 is required for all
seized vehicles, vessels, and aircraft transferred to
the custody of the seized property contractor.
10. The seized property contractor will verify the Form
181 for accuracy and note any discrepancies.
11. The seized property contractor will keep the
original Form 181.
12. The seized property contractor will also complete
its own forms upon the receipt and transfer of any
seized property. The AFC, or other designated CI
contact on site, will verify the accuracy of the
information contained on the seized property
contractor's forms before signing them.
13. The seized property contractor will provide the
AFC with the Seizure Case and Asset Tracking
System (SEACATS) generated seizure number
used to track and identify seized property by the
seized property contractor.
14. Any movement of seized property from its current
physical storage location must be approved by the
AFC. The seized property contractor will provide
the AFC with the Form 9573, which shows the new
location of the seized property. The seized property
contractor, or its designated agent, may contact the
AFC to confirm details of the proposed transfer.
****

37a
9.7.6.7.4 (06-11-2002)
Documentation of Condition of Seized Property
1. At the time of the receipt and/or transfer of the
seized property, it is the responsibility of the seized
property contractor to document the condition of
the seized property in writing, videos, and/or
photographs.
2. The AFC, or other designated CI contact on site,
will also document the condition of the seized
property in writing and may photograph or
videotape the property.
****
9.7.6.8 (06-11-2002)
Appraisal
1. All seized property must be assigned a value upon
seizure. The terms “appraised value” and “fair
market value” have different meanings in the
context of dealing with the seized property
contractor.
****
9.7.6.8.1 (08-11-2008)
Appraised Value
1. The appraised value (APV) of seized property is the
responsibility of CI. The AFC, or other designated
CI contact on site, will enter the APV for each line
item on the Form 9573. The seized property
contractor will notify the AFC within the time
period specified in the SOW when an APV was not
provided on the Form 9573.
2. In situations where a third-party appraisal is
required, the AFC may request the assistance of

38a
the seized property contractor in obtaining thirdparty appraisals. The third-party appraisal
becomes the APV.
3. The following types of seized property may require
third-party appraisals:
A. conveyances for which there are no established
retail value publications, such as an antique
B. high-value or specialty jewelry items
C. precious metals, stones, and gems
D. rare or valuable coins
E. objects of art
F. antiques or artifacts
G. any other unusual, unique, or special items
****
9.7.6.9.2 (06-11-2002)
Methods of Storage
1. Seized property will be stored by the seized property
contractor in the most cost-effective method
available to preclude any deterioration of the
property so that the physical condition of the
property is maintained as it was at the time of
acceptance. Methods of storage will range from
open storage to highly secured facilities, depending
upon the type of seized property to be stored.
****
9.7.6.14.1 (03-01-2013)
Currency
1. Criminal Investigation policy mandates that
domestic and foreign currency seized for forfeiture,

39a
except where it is to be used as evidence or held as
a “collectible asset” must be expeditiously counted,
processed, and deposited into the Treasury
Suspense Account within 5 days of seizure. The use
of safe deposit boxes or other secure methods of
temporarily storing seized currency is acceptable
when necessary.
2. Refer to IRM 9.7.12, Evidence Seizures, for the
required procedures to obtain the appropriate
approvals to hold seized currency as evidence.
3. Seized currency will be transported with
appropriate security measures to ensure safe
transportation to the physical site of deposit. The
CI contact will remain at the site until the currency
is recounted, if necessary, by the financial facility
and a proper receipt is provided for the deposit.

